No. 20-6113

In the Supreme Court of the United States
________
JEFFREY WOGENSTAHL,
Petitioner,
v.
TIM SHOOP, WARDEN,
Respondent.

ON PETITION FOR WRIT OF CERTIORARI TO
THE UNITED STATES COURT OF APPEALS
FOR THE SIXTH CIRCUIT
CERTIFICATE OF SERVICE

I, Kimberly S. Rigby, being a member of the Bar of the Supreme Court of the
United States, pursuant to Rule 29.5(b), Rules of the Supreme Court, do hereby
certify that a copy of the foregoing Reply Brief of the Petitioner and Certificate of
Service were forwarded by regular U.S. Mail to Assistant Attorney General Brenda
Leikala, Criminal Justice Section, Capital Crimes Unit, Office of Ohio Attorney
General, 150 E. Gay St, 16th Floor, Columbus, Ohio 43215 and by email to
Brenda.Leikala@ohioattorneygeneral.gov on this 28th day of December, 2020.
I further certify that all parties required to be served have been served.

Respectfully submitted,

Kimberly S. Rigby (0078245)
Supervising Attorney, Death Penalty Dept.
Counsel of Record
Office of the Ohio Public Defender
250 E. Broad Street, Suite 1400
Columbus, Ohio 43215
(614) 466-5394
(614) 644-0708 (Fax)
Kimberly.Rigby@opd.ohio.gov
and
Andrew P. Avellano (0062907)
Attorney at Law
4181 East Main Street
Columbus, Ohio 43213
614-237-8050; 614-237-3505 (Fax)
drewavo@wowway.com
Counsel for Petitioner Wogenstahl

2

